         August 1, 2006




 Logistics
 H-60 Seahawk Performance-Based
 Logistics Program
 (D-2006-103)




This special version of the report has been revised to omit contractor proprietary data.




                         Department of Defense
                        Office of Inspector General
   Quality                             Integrity                    Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit, Audit Followup and Technical Support at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                      Department of Defense Inspector General
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704




Acronyms
BCA                   Business Case Analysis
DAU                   Defense Acquisition University
FAR                   Federal Acquisition Regulation
FLIR                  Forward Looking Infra-Red
GAO                   Government Accountability Office
IPT                   Integrated Product Team
LMSIC                 Lockheed Martin Systems Integration
MHSCo                 Maritime Helicopter Systems Company
NAVAIR                Naval Air Systems Command
NAVICP                Naval Inventory Control Point-Philadelphia
NAVSUP                Naval Supply Systems Command
OSD                   Office of the Secretary of Defense
PBL                   Performance-Based Logistics
RSAS                  Raytheon Space and Airborne Systems
SAC                   Sikorsky Aircraft Corporation
USD(AT&L)             Under Secretary of Defense for Acquisition, Technology, and
                         Logistics
               Department of Defense Office of Inspector General
Report No. D-2006-103                                                    August 1, 2006
  (Project No. D2005-D000LD-0113)

        The H-60 SeaHawk Performance-Based Logistics Program

                                Executive Summary

Who Should Read This Report and Why? DoD civil service personnel, uniformed
officers, and Government contractors responsible for implementing performance-based
logistics should read this report. This report discusses the H-60 SeaHawk performance-
based logistics program.
Background. DoD emphasizes performance of a weapons system throughout the
system’s life cycle. Performance-based logistics is a DoD strategy designed to provide
assured levels of system readiness by focusing on systems management and direct
accountability. The Quadrennial Defense Review, September 30, 2001, identifies DoD
strategic goals for acquisition and logistics that include performance-based logistics.
Performance-based logistics is a support strategy that uses a process of buying
performance, rather than spare parts or repair actions, to sustain a weapon system,
subsystem, or component. Through a mix of Government and private-sector
partnerships, performance-based logistics strategies align required performance outcomes
with the operational needs of the warfighter.
Naval Air Systems Command PMA-299 Multi-Mission Helicopter Program Office in
Patuxent River, Maryland, manages the H-60 SeaHawk weapon system and is
responsible for production, logistics, maintenance, quality control, and training.
Sikorsky Aircraft Company developed and began producing in 1983 the Navy version of
the H-60. The missions of the Navy H-60 are anti-submarine warfare, search and rescue,
drug interdiction, anti-ship warfare, cargo lift, special operations, and anti-submarine
protection for the carrier battle group.
Results. The Program Office and Naval Inventory Control Point identified and
documented a sound process for preparing and developing H-60 SeaHawk Business Case
Analysis and performance-based logistics strategies. Because the Navy aggressively
adopted and implemented the H-60 SeaHawk Performance-Based Logistics strategy, the
Program Office realized benefits from the strategy, which included reported increases in
availability and reliability, training opportunities, Navy depot workload, and product
improvements. However, the Program Office and Naval Inventory Control Point were
unable to document their effectiveness in managing the performance-based logistics
contracts. We reviewed the management control program as it related to the audit
objectives. As a result, the Naval Inventory Control Point could not demonstrate whether
H-60 SeaHawk Performance-Based Logistics contract incentive payments were accurate
and could not determine if any H-60 SeaHawk Performance-Based Logistics efforts
reduced total ownership costs. The Commander, Naval Supply Systems Command
needed to establish oversight procedures to verify and document contractor performance,
establish time frames for reconciliations and contract modifications, and update the
Business Case Analysis. The Commander, Naval Inventory Control Point needed to
establish management controls for contract-required reconciliations. Revising the
contractor oversight process would provide DoD the needed assurance that the oversight
effectively supports DoD management goals. Recommendations in this report, if
implemented, will correct the weakness identified and will improve NAVICP
administration of performance-based logistics contracts.
Management Comments and Audit Response. The Deputy Assistant Secretary
(Logistics), Office of the Assistant Secretary Research, Development and Acquisition,
Department of the Navy provided comments on behalf of the Commander, Naval Supply
Systems Command and the Commander, Naval Inventory Control Point-Philadelphia.
The Deputy Assistant Secretary concurred with the finding and the recommendations and
agreed to issue policy by September 20, 2006, that will provide detailed guidance on
contract management and oversight. The Commander, Naval Inventory Control Point
agreed to establish an assessable unit to comply with procedures for contract-required
reconciliation and ensure adequate and consistent documentation of performance-based
logistics contracts. While the Deputy Assistant Secretary concurred with the finding, he
proposed minor language changes that would more accurately describe the situation. We
considered the Deputy Assistant Secretary’s suggestions and incorporated some changes
into the final report.
Management comments from the Deputy Assistant Secretary were considered responsive.
See the Finding section of the report for a discussion of the management comments and
the Management Comments section of the report for the complete comments.




                                           ii
Table of Contents

Executive Summary                                                        i

Background                                                               1

Objectives                                                               3

Management Control Program Review                                        3

Finding
          Management and Oversight of H-60 SeaHawk Performance-Based
           Logistics Contracts                                           5

Appendixes
     A. Scope and Methodology                                           16
         Prior Coverage                                                 16
     B. Office of the Secretary of Defense and Department of the Navy
          Performance-Based Logistics Guidance                          18
     C. Performance-Based Logistics H-60 SeaHawk Contracts              21
     D. Other Management Initiatives                                    22
     E. Report Distribution                                             24

Management Comments
     Department of the Navy                                             25
Background
    Performance-Based Logistics. DoD emphasizes performance of weapon
    systems throughout the system’s life cycle. Since FY 2001, Performance-Based
    Logistics (PBL) has been the DoD-preferred product support strategy.

    In general, the intent of a PBL strategy is to provide an assured level of system
    readiness because it facilitates focusing on system management and direct
    accountability. The Quadrennial Defense Review, September 30, 2001, identifies
    DoD strategic goals for acquisition and logistics, which include PBL. PBL uses a
    process of buying performance, rather than spare parts or repair actions, to sustain
    a weapon system, subsystem, or component. Through a mix of Government and
    private-sector partnerships, a PBL strategy aligns required performance outcomes
    with the warfighters’ operational needs.

    DoD Directive 5000.1, “The Defense Acquisition System,” May 12, 2003,
    requires that program managers develop and implement PBL strategies that will
    optimize total system availability while minimizing cost and logistics
    infrastructure. In August 2004, the Under Secretary of Defense Acquisition,
    Technology, and Logistics (USD[AT&L]) required that arrangements negotiated
    for PBL require that contractors meet performance measures such as availability
    or reliability to improve product support effectiveness while reducing total
    ownership costs. The memorandum also stated that performance strategies must
    support five general objectives, including:

           •   percentage of time a weapon system is available for a mission
               (operational availability);

           •   percentage of mission objectives accomplished (operational
               reliability);

           •   operating costs divided by a specified unit of measure (cost per unit
               usage);

           •   size and presence of support required to deploy, sustain, or move a
               weapon system (logistics infrastructure); and

           •   period of time that is acceptable between the demand or request for
               support and the satisfactory fulfillment of that request (logistics
               response time).

    Office of the Secretary of Defense Guidance. Before FY 2002, the Office of
    the Secretary of Defense (OSD) did not issue adequate guidance that would help
    the Military Departments efficiently and consistently make the best choices for
    PBL implementation. Since FY 2003, however, OSD has stressed the benefits of
    PBL through improved directives and memorandums. The directives and
    memorandums provide guidance on using PBL to increase readiness, assign
    responsibilities of program managers, establish goals for PBL contract awards,
    and provide principles for developing PBL Business Case Analyses (BCAs) as
    well as implementing PBL arrangements. See Appendix B for the OSD guidance.


                                         1
           Navy Guidance. The Naval Inventory Control Point-Philadelphia (NAVICP)
           published the “Naval Inventory Control Point Performance-Based Logistics
           Guide for Industry” in June 2002. Although it identifies the NAVICP strategic
           approach to PBL development, the guide also identifies five phases in the PBL
           development process. Those five phases are (1) candidate selection,
           (2) exploration and decision-making, (3) contract negotiations and award,
           (4) implementation, and (5) performance monitoring. As well, the Navy
           continuously updated the guidance, emphasizing use of PBL support strategies.
           Assistant Secretary of the Navy (Research, Development, and Acquisition),
           “Performance Based Logistics Guidance Document,” January 27, 2003,
           articulates the strategy for PBL, identifies characteristics of PBL, and defines
           PBL roles and responsibilities of Navy program managers.

           In an effort to encourage the use of PBL strategies, NAVICP also developed the
           “Maritime PBL Deskguide,” which addresses areas of major concern related to
           PBL initiatives, including types of agreements, performance metrics and
           requirements, language for statements of work and objectives, BCA process, and
           file maintenance procedures. Instructions for the PBL BCA Cost Model are in the
           NAVICP-issued “BCA Cost Model Desk Reference Guide,” dated September 15,
           2004. That guide contains instructions for using the BCA model.1

           Support for PBL was furthered when the Assistant Secretary of the Navy
           (Research, Development, and Acquisition) issued the “DoN Guidebook for
           Developing Performance Based Logistics Business Case Analysis,” September 30,
           2005. The guidebook amplifies information and guidance for program managers
           and costs analysts when developing BCAs for PBLs. See Appendix B for a list of
           Navy guidance issued between April 2002 and September 2005.

           H-60 SeaHawk Helicopter. The Navy designated PBL as a support strategy for
           the family of H-60 SeaHawk helicopters, including legacy and new production
           models. The Sikorsky Aircraft Company (SAC) began developing and producing
           the SeaHawk in 1983. The SeaHawk is a twin-engine, medium lift, utility
           helicopter, whose missions for the Navy include anti-submarine warfare, search
           and rescue, drug interdiction, anti-ship warfare, cargo lift, special operations, and
           anti-submarine protection for the carrier battle group. The H-60R and S models
           of the SeaHawk, now in production, will replace older legacy models as well as
           other Navy helicopters.

           H-60 SeaHawk Program Management. The Naval Air Systems Command
           (NAVAIR) PMA-299 Multi-Mission Helicopter Program Office (Program Office)
           in Patuxent River, Maryland, manages the H-60 SeaHawk weapon system
           program. The Naval Supply Systems Command (NAVSUP) oversees logistics
           programs. The areas of logistics include supply operations, contracting, resale,
           fuel, and transportation. NAVICP, a component of NAVSUP, provides program
           support to NAVAIR. NAVICP support includes management and funding for the
           Navy H-60 PBL contracts.

1
    The BCA model is a decision support tool used to estimate the costs and describe the benefits between
    alternative product support strategies, such as the existing support strategy versus the proposed alternative.
    It compares the total estimated product support costs between traditional and PBL strategies to assist in
    determining the appropriate product support concept required by a performance based agreement.



                                                         2
           H-60 PBL Contracts. NAVICP awarded four firm-fixed-price PBL contracts,
           for a total value of $658.8 million, for the Navy H-60 SeaHawk. Each contract
           was for specific Navy-unique items and select H-60 models that use those items.
           The four contracts were Tip-to-Tail, Forward Looking Infra-Red (FLIR),
           Dynamic Components, and Avionics.

                  Tip-to-Tail Contract. The H-60 Tip-to-Tail contract awarded to
           Maritime Helicopter Support Company2 (MHSCo) December 30, 2003, is a
           $417 million, 5-year, firm-fixed-price PBL contract to support 540 items.

                  FLIR Contact. The FLIR contract, awarded to Raytheon Space and
           Airborne Systems (RSAS) September 30, 2003, is a $123.2 million, 10-year, firm-
           fixed-price PBL contract for contractor logistics management of three FLIR
           items.

                  Dynamic Components Contract. The Dynamic Components contract,
           awarded to SAC February 27, 2003, is a $113 million, 31-month, firm-fixed-price
           PBL contract that requires them to provide supply management for 14 H-60
           items.

                 Avionics Contract. The Avionics contract, awarded to Lockheed Martin
           Systems Integration Corporation (LMSIC) May 10, 2002, is a $5.6 million,
           41-month, firm-fixed-price PBL contract requiring that LMSIC provide supply
           management of 42 avionics items.

           See Appendix C for further details on the four PBL contracts.


Objectives
           Our overall audit objective was to review the H-60 SeaHawk PBL program and
           determine what benefits DoD derived from teaming with industry or organic
           activities for PBL support. Specifically, we evaluated whether NAVICP
           adequately prepared BCAs for the H-60 and whether cost savings, availability,
           and reliability data in the BCAs supported the sustainment strategy decision. In
           addition, we reviewed the management control program as it related to the audit
           objectives. See Appendix A for a discussion of the scope and methodology and
           prior coverage related to the objectives.

Management Control Program Review
           DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
           and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
           August 28, 1996, require DoD organizations to implement a comprehensive
           system of management controls that provides reasonable assurance programs are
           operating as intended and to evaluate the adequacy of the controls.

2
    Joint venture of Lockheed Martin Systems Integration, Inc. and Sikorsky Aircraft Corporation.


                                                      3
Scope of the Review of the Management Control Program. We reviewed
adequacy of the NAVAIR Program Office, NAVSUP, and NAVICP Management
Control Programs. Specifically, we reviewed those commands’:

       •   annual management control certification statements;

       •   self-evaluations of units responsible for PBL implementation, BCA
           development, pricing program, contract administration, and the Navy
           Working Capital Fund; and

       •   procedures related to PBL implementation, BCA development, pricing
           program, contract administration, and the Navy Working Capital Fund.

Adequacy of Management Controls. We identified a material management
control weakness, as DoD Instruction 5010.40 defines, in contract administration
for PBL. NAVSUP procedures for contract administration related to monitoring
and documenting contractor performance, reconciling and documenting actual to
estimated flight hours, and issuing contract modifications were inadequate and
inconsistent.

Recommendations in this report, if implemented, will correct the weakness
identified and will improve NAVICP administration of PBL contracts. A copy of
this report will be provided to the senior official responsible for management
controls in the Office of the Assistant Secretary of the Navy (Research,
Development, and Acquisition.) See the finding of this report for
recommendations.

Adequacy of Management’s Self-Evaluation. NAVICP officials identified
contract administration as an assessable unit. During a Procurement Performance
Measurement Assessment Program review, NAVSUP officials noted a finding
that related to contract administration documentation. However, NAVICP
officials did not report the finding as a material control weakness because they
concluded that the issue did not relate to compliance to laws and regulations,
integrity and professionalism, or management controls.




                                    4
           Management and Oversight of H-60
           SeaHawk Performance-Based Logistics
           Contracts
           The Program Office and NAVICP identified and documented a sound
           process for preparing and developing H-60 SeaHawk BCA and PBL
           strategies. Because the Navy aggressively adopted and implemented the
           H-60 SeaHawk PBL strategy, the Program Office realized benefits from
           the strategy, which included reported increases in availability and
           reliability, training opportunities, Navy depot workload, and product
           improvements. However, the Program Office and NAVICP were unable
           to document their effectiveness in managing the PBL contracts. They
           could not document their effectiveness because of a lack of adequate
           contract management and oversight. As a result, NAVICP could not
           demonstrate whether H-60 SeaHawk PBL contract incentive payments
           were accurate and could not document if any H-60 SeaHawk PBL efforts
           reduced total ownership costs.


Guidance and Criteria
    Business Case Analysis Guidance. OSD issued memorandum, “Performance
    Based Logistics (PBL) Business Case Analysis (BCA),” January 23, 2004. The
    memorandum directs that the Military Department incorporate 11 PBL BCA
    guiding principles into their respective PBL BCA guidance. DoD requires that
    the departments perform a cost analysis (the BCA) for competing logistics
    support strategies. The evaluation determines the economic feasibility of
    partnering with industry to provide improved weapon system support at the same
    cost or less than existing support strategies. The process that NAVICP developed
    identified specific elements that programs should use for developing PBL BCA
    models. For example, guiding principle number two addresses the need for
    updating BCAs and states:
           BCAs will be conducted to assess changes from existing product
           support strategies for legacy systems and to support the product
           support strategy for new weapon systems. Over time, BCAs will need
           to be updated or repeated to validate the approach taken and to support
           future plans.

    OSD guidance “Performance-Based Logistics: A Program Manager’s Product
    Support Guide,” November 2004, incorporates the 11 guiding principles from the
    January 23, 2004, memorandum. The guidance applies to the entire integrated
    program office team, including program office personnel, other Government
    personnel, and industry. As stated in the guidance, BCA is an iterative process.
    In addition, the guidance also states that efforts to develop a BCA should be
    consistent with the OSD guiding principles.




                                             5
           Federal Acquisition Regulation. The Federal Acquisition Regulation (FAR)
           describes roles, responsibilities, and duties associated with contract
           administration and oversight. FAR 46.104, “Contract Administration Office
           Responsibilities,” states that contract administration assigned to offices with
           oversight responsibility for the contractor’s plant must verify that supplies or
           services conform to contract quality requirements. The office must also maintain
           a record of any quality assurance action, including observations made and types
           of defects noted. FAR 42.1106, “Reporting Requirements,” requires that contract
           administration offices review and verify the accuracy of contractor reports and
           then advise the contracting office of any required action.


PBL Program Development
           The Program Office and NAVICP identified and documented a sound process that
           supported the H-60 SeaHawk PBL strategy. To create a successful strategy,
           program offices must evaluate weapon system strategies for logistics support and
           determine if a performance-based arrangement for logistics is cost effective. The
           process also includes preparation of a BCA.

           PBL Process. The Navy developed the H-60 SeaHawk PBL program through
           effective use of the PBL guide for industry that NAVICP published in June 2002.
           The NAVICP identification and implementation of the five-phased PBL
           development process was a contributing factor toward achieving a well-documented
           and logical process for the support of the H-60 SeaHawk PBL program. During the
           candidate selection phase, the Program Office identified the H-60 SeaHawk as a
           weapon system that could benefit from improved support or reduced support costs
           under a PBL arrangement. During the exploration and decision-making phase, the
           Program Office and NAVICP formed an H-60 SeaHawk Integrated Product
           Team (IPT) who conducted market research, gathered BCA data, and developed the
           contract statement of work. In the contract negotiation and award phase, NAVICP
           finalized the H-60 SeaHawk contract statement of work, completed BCA
           development, and reviewed the contractor’s proposal. The implementation phase
           began after contract award with the selected contractors joining the IPT. The final
           phase, performance monitoring, involved ensuring customers received materials
           needed and stakeholders participated in periodic meetings to discuss contractor
           performance and associated supportability issues. With the development of the
           five-phased process, the Navy documented the H-60 planned approach and
           provided parameters, as well as reference points, to guide implementation of PBL.

           BCA Process. The Program Office and NAVICP used the IPT to begin the BCA
           process. The Program Office chaired the IPT; H-60 SeaHawk stakeholders
           included the NAVICP contracting officer, comptroller, cost analysts, Defense
           Logistics Agency depot personnel, and suppliers. Members of the IPT gathered
           data necessary for initiating a BCA and provided the information to the Price
           Fighters3 unit to complete the BCA.

3
    Price Fighters, a unit of NAVICP, consists of Engineers, Technicians, Cost Price Analysts, Statisticians,
    and Logisticians who develop the BCA. Price Fighters also directly assist during the actual contract
    negotiation process in order to defend their recommended position.


                                                        6
           To complete the BCAs, the Price Fighters used budget projections and data the
           IPT provided to calculate costs without PBL and used data obtained from the
           contractor cost proposals to calculate costs with PBL. To create the BCA model,
           the comptroller’s office from NAVSUP provided BCA costing factors for
           material, operations, and Defense Logistics Agency costs to the Price Fighters. In
           addition, NAVSUP sets Naval Cost Recovery Rates that are used to recoup
           expenditures of the Navy Working Capital Fund4 and are included in the
           calculation of BCA repair prices. Conducting a BCA involves a combination of
           several logistics areas. Information for a BCA combines commercial and organic
           support with an emphasis on trying to increase commercial support to the greatest
           extent possible at the lowest cost.

           Included in the “with PBL” and the “without PBL” BCA scenarios were the
           sustainment costs for the H-60 SeaHawk. The difference between the two
           scenarios was either a Navy Working Capital Fund cost avoidance or a loss. The
           cost avoidance amount represented the monetary benefit the Navy planned to
           achieve by pursuing a PBL strategy. Each of the four H-60 SeaHawk BCAs
           identified a break-even or better condition before NAVICP awarded the contracts
           for the H-60 SeaHawk.


H-60 SeaHawk Availability and Reliability
           The Navy derived from the PBL strategy benefits in increased availability and
           reliability. Contractor performance reports from each of the four contractors and
           several interviews with Navy fleet personnel indicated that using the PBL strategy
           for the H-60 SeaHawk increased both availability and reliability of the weapon
           system. Navy Atlantic and Pacific Fleet H-60 SeaHawk wing personnel cited
           increases in availability of equipment for mission tasking as well as equipment
           dependability. The contractors tracked availability data for each contract. The
           contractors were not required, however, to track reliability data on two of the four
           contracts. The two contracts for which they did not require data were Dynamic
           Components and Avionics contracts.
           Availability. The Tip-to-Tail PBL contract requires that MHSCo provide logistics
           management of 540 H-60 SeaHawk items. To receive the minimum incentive
           award, the contract requires that MHSCo maintain an availability rate of 75 percent
           for the aggregate of the items requisitioned during each performance period.
           MHSCo also had to achieve an 80-percent availability rate before they could
           receive the maximum incentive award. MHSCo calculated the availability rate of
           the items using the number of requisitions filled divided by the total number of
           requisitions during each incentive period, expressed as a percentage.5 According to
           NAVICP, before contract award the average availability of the universe for the Tip-
           to-Tail items was 69 percent. After execution of the Tip-to-Tail contract, MHSCo
           reported an average availability of better than 90 percent during each of the
           three incentive
4
    The Navy Working Capital Fund is a revolving account in which funds are expended and then replaced
    by income from operations rather than direct Congressional appropriations.
5
    Availability rates are calculated in the same way on all four contracts.



                                                         7
           periods from July 20046 through September 30, 2005. Although stating it validated
           the contractor-provided data, NAVICP did not maintain documentation of the
           validation. However, we reviewed all 898 transactions for the period November 1,
           2005, through January 31, 2006, and our analysis disclosed that the contractor-
           reported availability rates were accurate. We could not validate the data for the
           periods before November 2005 because data were not available.

           The FLIR PBL contract requires that RSAS provide logistics management of
           three FLIR weapon system items. The contract requires that RSAS demonstrate
           at scheduled performance reviews the actual availability of the contracted items.
           RSAS would receive a decreased payment if availability rates dropped below
           90 percent for any 12-month period. NAVICP and RSAS held six performance
           reviews and reported that availability rates for the items increased from
           44 percent in September 2003 to 100 percent in the first quarter of FY 2004 and
           remained at 100 percent through September 2005. Although stating that it
           verified the contractor-provided data, NAVICP did not maintain documentation
           of the verification. However, we reviewed all 97 transactions for the period
           April 1, 2005, through September 30, 2005, and our analysis disclosed that the
           contractor-reported availability rates were accurate.

           The Dynamic Components PBL contract requires that SAC provide supply
           management of 14 H-60 SeaHawk items. The contract requires that SAC
           demonstrate actual availability of the items at scheduled performance review
           boards. The contract states that SAC would earn a performance incentive based
           on its ability to achieve a prescribed availability for each item. Each item had a
           different availability metric--some based on the actual number of requisitions
           filled and others on the percentage of requisitions filled. NAVICP and SAC held
           five performance review boards. At the final performance review board, SAC
           reported an availability of 95 percent for the 14 contracted items. In addition, by
           the end of November 2003, SAC also reduced backorders7 for the 14 items in the
           Dynamic Components contract from 78 to zero and maintained zero backorders
           for the remainder of the contract performance ending September 30, 2005. Before
           awarding an incentive fee, the contracting officer had a NAVICP logistician
           verify the contractor data for accuracy. We reviewed the logistician’s analysis
           and determined that the process used was adequate. The logistician documented
           the analysis in a memorandum to the contracting officer.

           The Avionics PBL contract requires that LMSIC provide supply management of
           42 avionics items. The contract requires that LMSIC demonstrate actual availability
           of the items at scheduled performance reviews. To determine the amount of
           incentive earned in each performance period, the contractor had to maintain a
           specific average availability. NAVICP and LMSIC held five performance reviews
           throughout the contract. The contractor reported that availability rates increased
           from 68 percent in April 2003 to 100 percent in December 2003. Although stating
           that it validated the contractor-provided data, NAVICP did not maintain
           documentation of the validation. We did not verify the availability data because

6
    Performance for contract award December 2003 through June 2004 was a preparation period and
    availability rates were not required to be tracked.
7
    Backorders are requisitions that are unfilled by the delivery time specified in the contract.



                                                         8
            NAVICP and LMSIC mutually terminated the Avionics contract in December 2003
            and transferred management of the 42 avionics items to the Tip-to-Tail contract.

            Reliability. The Tip-to-Tail PBL Phase I contract requires that MHSCo track
            reliability rates for 62 items during the contract. NAVICP established reliability
            baseline rates in the Tip-to-Tail contract for each of those items. The contract also
            requires that MHSCo report during quarterly program management reviews when
            the 27-month moving average failure rate for any of the items exceeded a
            predefined limit (one standard deviation8) above the reliability baseline. The
            contract defines a reliability metric as the sum of all failures for each item over the
            last nine contract performance quarters per 100,000 flying hours. The contractor
            did not begin reporting the reliability metric until the second quarter of FY 2005.
            We analyzed the MHSCo data, and determined that the moving average failure
            rates for 90 percent of the tracked items did not exceed the predefined limit of the
            reliability baseline rate.

            The FLIR PBL contract requires that RSAS develop a reliability program that
            includes data collection, performance reviews, and failure analysis. RSAS
            reported results of the reliability program in quarterly reports and during quarterly
            failure review boards. The contract required tracking of reliability by the mean-
            time-between-failure9 and the mean-time-between-unscheduled-removal.10 For
            each of the three parts, the contract established a March 2005 reliability baseline
            and required increases in reliability by the end of March 2006 and March 2008. In
            November 2005, the contractor reported exceeding the mean-time-between-failure
            metrics by more than 50 percent, which placed RSAS above the March 2008
            contract requirements. NAVICP did not validate the contractor-provided data.
            We reviewed the RSAS process for equipment performance reporting and found
            that RSAS had a well-integrated process to collect, compile, and report reliability
            data on the H-60 SeaHawk contract. Also, personnel interviewed from the Naval
            Atlantic Fleet H-60 SeaHawk Wing stated that reliability of the FLIR components
            increased since RSAS began managing FLIR PBL items.


Management Initiatives
            Management aggressively adopted and implemented the PBL concept, which
            resulted in other benefits for the H-60 SeaHawk to include PBL and contractor-
            provided training, additional Navy depot workload in compliance with applicable
            laws, and contractor-provided process improvements. See Appendix D for further
            details on management initiatives.

8
    In a normal distribution of data, most of the examples in a set of data are close to the average, while
    relatively few examples tend to one extreme or the other. The standard deviation is a statistic that tells
    how tightly all the various examples are clustered around the average in a set of data.
9
    Mean-time-between-failure is a basic measure of reliability for repairable items. Mean-time-between-
    failure is the average time during which all parts of the item perform within their specified limits, during
    a particular measurement period under stated conditions.
10
      Mean-time-between-unscheduled-removal is a basic measure of reliability for repairable fielded systems.
     Mean-time-between-unscheduled-removal is the average time between unscheduled maintenance actions
     requiring removal and replacement of a box or subsystem.



                                                         9
Management of PBL Contracts
    NAVICP inconsistently applied procedures for contract management and
    inadequately documented oversight of PBL contracts. Specifically, NAVICP did
    not adequately monitor and document contractor performance, reconcile flight
    hours in a timely manner, issue timely contract modifications, and determine
    actual cost avoidances. In addition, the procedures NAVICP implemented for
    contract oversight differed among contracting personnel who managed and
    oversaw the four firm-fixed-price PBL contracts.

    Monitoring and Documenting Contractor Performance. NAVICP procedures
    and documentation for monitoring H-60 SeaHawk PBL contracts were
    inadequate.

    NAVICP officials did not adequately document their review of the reported
    performance of contractors for three of the four PBL contracts. For example, the
    Tip-to-Tail contract requires that MHSCo calculate performance availability and
    reliability rates as well as adjustments to the rates. Immediately following
    completion of an incentive performance period, the contract states that MHSCo
    must present the results to the Navy at program management reviews. In addition
    to calculating rates, MHSCo was responsible for maintaining availability
    performance data for items delivered as well as tracking reliability of items
    managed. NAVICP awarded contract performance incentives to MHSCo based
    on availability rates achieved and reported during each incentive period.

    NAVICP used operational data that the MHSCo management information system
    originaly captured to validate the contractor’s performance rates during the
    contract. In addition, NAVICP led a quarterly program management review
    board that analyzed the performance data to determine if MHSCo performed as
    required. However, NAVICP did not retain documentation detailing how often
    and what data they randomly verified and did not record the minutes of the six
    program management review board meetings. We verified the accuracy of the
    Tip-to-Tail availability rates for the period November 1, 2005, through
    January 31, 2006.

    NAVICP also did not have procedures for monitoring performance improvement
    or verifying the results. On the FLIR contract, for example, RSAS held six failure
    review boards where they reported the operating hours for FLIR equipment and
    the number of relevant equipment failures. During those meetings, NAVICP
    discussed the equipment failures. However, NAVICP did not have a process or
    procedures for checking or verifying reported equipment-operating hours. Navy
    personnel from the Atlantic Fleet indicated that the reliability of H-60 SeaHawk
    FLIR parts increased since the parts became contractor managed. However,
    without verification of the operating hours, the Navy had no assurance that
    contract performance RSAS reported was accurate and complete.

    Reconciling Flight Hours. NAVICP did not perform required annual flight hour
    reconciliations for the Tip-to-Tail PBL contract and did not follow the contract
    specified reconciliation procedures for the FLIR contract.



                                        10
        Contract Required Reconciliation. For the Tip-to-Tail contract,
NAVICP did not perform the required reconciliations of projected and actual
H-60 SeaHawk helicopter flight hours. NAVICP issued an individual delivery
order that covered each performance period of PBL support. NAVICP based the
contract price for PBL support on projected annual flight hours and aircraft
quantities. According to the contract, NAVICP would adjust the contract after
completing each performance period. Adjustments in the contract were to be
based on actual Navy-certified H-60 SeaHawk flight hours.

        Each December, the Navy certified and published in the Budget Analysis
Report actual H-60 SeaHawk flight hours for the previous fiscal year. The Tip-
to-Tail contract terms state that if actual flight hours were greater than
125 percent or less than 75 percent of the projected flight hours, or if the actual
number of aircraft flown were greater than 125 percent or less than 75 percent of
projected quantities, pricing of PBL support would be subject to an equitable
adjustment. As of the end of audit field work, NAVICP did not perform an
analysis determining whether the actual flight hours were in the acceptable range
for performance periods that ended September 30, 2004, or September 30, 2005.
NAVICP also could not determine if equitable adjustments were appropriate.

        Reconciliation Procedures. NAVICP did not reconcile the FY 2004
projected H-60 SeaHawk flight hours with Navy-certified actual flight hours in
accordance with FLIR contract requirements. A projected number of
H-60 SeaHawk aircraft flying hours, taken from the Budget Analysis Report, was
the basis for pricing the FLIR PBL contract. The contract required annual
reconciliation of projected hours to the total actual flight hours. According to the
contract, only when the difference between projected and actual H-60 SeaHawk
flight hours was 15 percent or greater could either party request a contract price
adjustment. Using the reconciliation method that the contract required, actual
flight hours for FY 2004 were 20 percent less than projected flight hours. The
contractor reported at the November 4, 2004, program management review with
NAVICP that the reconciled flight hours were 2 percent greater than the projected
hours. However, the reconciliation method the contractor used was not in
accordance with contract requirements. The contractor used FLIR system
operating hours rather than actual H-60 SeaHawk flight hours published in the
Budget Analysis Report that the contract required. NAVICP did not reconcile the
flight hours for FY 2004, and therefore, did not negotiate and issue a price
modification to the FLIR PBL contract. If NAVICP determined that the FLIR
system operating hours is a more accurate basis for pricing the contract than the
Budget Analysis Report, then NAVICP should issue a contract modification to
change the flight hour requirement and perform the required reconciliation. The
Navy would have had an additional cost avoidance of $4.1 million during
FY 2005 had NAVICP accomplished the FY 2004 flight hour reconciliation as
required.

Issuing Contract Modifications. NAVICP did not make timely H-60 Tip-to-
Tail or Dynamic Components contract modifications and did not maintain
documentation of how Dynamic Components contract modifications were
developed.




                                     11
                    Tip-to-Tail. NAVICP did not issue in a timely manner contract
            modifications for the performance period ending September 30, 2004. When
            NAVICP issued the contract, MHSCo proposed costs based on a projected mix of
            ready-for-issue parts and parts waiting repair to be transferred from DoD to
            MHSCo control. Because the actual mix of parts transferred to MHSCo differed
            from the projected mix, NAVICP planned to issue a contract modification adjust
            for the difference. NAVICP also planned to include in the contract modification
            the cost impact (if any) from reconciliation of flight hours. As of the end of audit
            field work, NAVICP had not reconciled actual inventories of H-60 SeaHawk
            parts transferred to MHSCo control with the projected mix of DoD inventory.

                   Dynamic Components. NAVICP did not adequately maintain
            documented evidence of the process used for making contract price adjustments
            and contract modifications that reduced the contract price by $15.9 million. After
            reconciling the actual and projected flight hours, the contracting officer
            determined that the billed amount for FY 2003 and FY 2004 was greater than the
            revised total contract price. However, the contracting officer did not issue until
            June 2005 the modifications for the FY 2003 and FY 2004 price adjustments, an
            18-month and 5-month delay, respectively. Modifications issued for flight hour
            reconciliations and incentive fees reduced the program price by $4.7 million in
            FY 2003 and $11.2 million in FY 2004.

            Determining Actual Cost Avoidance. NAVICP did not revalidate the choice of
            PBL as the support strategy by updating the four H-60 SeaHawk BCAs.

            OSD guidance, “Performance Based Logistics (PBL) Business Case Analysis
            (BCA),” January 23, 2004, states that organizations must assess through BCAs on
            legacy systems the change from existing product support strategies to PBL
            strategies. To validate the approach taken and to support future plans, the
            guidance also requires that officials update the BCAs. Before NAVICP awarded
            the four H-60 SeaHawk PBL contracts, they conducted BCAs designed to
            determine if the PBL strategy was the appropriate choice for sustainment of the
            managed items under the proposed contracts. At the time of contract award, the
            results of the BCAs determined that the:

                     •    Tip-to-Tail PBL contract should produce $ * in cost avoidance without
                          incentives or $ * with incentives over 5 years.
                     •    FLIR PBL contract should produce $ * in cost avoidance over
                          10 years.

                     •    Dynamic Components PBL contract should produce $ * in cost
                          avoidance without incentives, or $ * with incentives.

                     •    Avionics PBL contract should produce $ * in cost avoidance without
                          incentives, or $ * with incentives.



*
    This section of the report contains source selection sensitive or contractor proprietary information that has
     been omitted.


                                                        12
To monitor PBL contracts, NAVICP personnel typically relied on cost and
performance data that contractor information systems generated. NAVICP,
however, did not determine whether contractor-provided data were sufficiently
reliable to update the BCA for the H-60 SeaHawk Tip-to-Tail contract.
Consequently, NAVICP did not have reliable Government data that could validate
assumptions used in the BCAs and determine whether PBL arrangements
achieved expected cost savings. NAVICP monitoring of the contractor’s systems
is vital for ensuring the accuracy of expected costs under the contracts, validating
the business case decision used to justify a PBL arrangement, and obtaining the
data necessary to renegotiate contracts and negotiate follow-on contracts.

The Dynamic Components contract ended on September 30, 2005, after 31 months
of performance, and according to OSD guidance, NAVICP should have validated
the choice of PBL as the sustainment strategy by updating the BCA. NAVICP did
not update the BCA for the Dynamic Components contract before the contract
ended and before they transferred management of the Dynamic Components items
to the Tip-to-Tail contract. As a result, NAVICP could not determine the actual
cost avoidance associated with the Dynamic Components contract.

The Avionics PBL contract was in effect for approximately 19 months. By
mutual agreement between the Navy and the PBL contractor, Avionics items were
rolled into the Tip-to-Tail PBL contract in January 2004. NAVICP did not
subsequently update the original Avionics BCA with actual costs. Without
updating the BCA with actual costs, the Navy could not determine whether it
achieved the cost avoidance that the BCA projected.

NAVSUP PBL Contracting Oversight Procedures. NAVSUP did not issue
written standardized procedures and did not identify NAVICP roles and
responsibilities for PBL contract management and oversight. NAVSUP did not
clearly define or standardize the procedures for verifying and documenting
contractor performance, reconciling flight hours, and issuing timely contract
modifications. While the FAR provides contract administration guidance, it
allows for flexibility in application. The NAVICP monitoring of contractor
performance was inconsistent for the H-60 SeaHawk PBL contracts. NAVSUP
did not have policy, procedures, or guidance for updating BCAs, that would have
determined actual cost avoidance realized on PBL contracts.

Because standardized policy and procedures for monitoring PBL contracts did not
exist, the four contracting officers used inconsistent procedures for monitoring
their applicable PBL contract. For example, according to the Contracting Officer
for the Tip-to-Tail contract, NAVICP performed random checks of operational
data intended to validate availability results the contractor reported. For the
Dynamic Components contract, the contracting officer had a NAVICP logistician
verify before awarding an incentive fee all the contractor data for accuracy, which
included availability metrics reported at each of five performance review boards.
In addition, NAVICP had not updated the four BCAs since contract award.

NAVSUP should establish policy and procedures so contracting personnel
consistently perform and document required reconciliations as well as issue contract
modifications in a timely manner. NAVICP must update BCAs to determine if the
Navy realized projected cost avoidances and if the PBL approach remains valid.


                                    13
Conclusion
    Because the Navy aggressively adopted the PBL strategy and effectively used
    OSD-improved guidance and training, the H-60 SeaHawk PBL Program Office
    and NAVICP developed a sound process that supported the H-60 SeaHawk PBL
    strategy. In addition, the NAVICP PBL process resulted in the Navy reporting
    benefits such as increases in availability and reliability of PBL-managed items,
    contractor-provided training, depot workloads, and product improvements.

    NAVICP should improve some of its contract administration procedures.
    Because it inconsistently and inadequately documented monitoring of contractor
    performance, NAVICP could not provide evidence that the results the contractors
    reported justified the incentives paid. Without written procedures requiring
    contractor monitoring, reconciling flight hours, issuing contract modifications,
    and updating PBL BCAs, the Navy will not have a high degree of confidence that
    the PBL process is the correct and most effective approach for the H-60 SeaHawk
    program. In addition, without documentation the Navy has no guarantee that PBL
    contractors earned as of December 2005 the $6.1 million incentive fees paid for
    the contract performance periods.


Management Comments on the Finding and Audit Response
    Deputy Assistant Secretary (Logistics), Office of the Assistant Secretary
    Research, Development and Acquisition, Department of the Navy Comments.
    The Deputy Assistant Secretary concurred with the finding and recommended
    changes to the report language to more accurately describe the situation.

    Audit Response. We considered the Deputy Assistant Secretary’s comments
    responsive and incorporated some changes into the final report on pages 5 and 14.


Recommendations, Management Comments, and Audit
  Response
    1. We recommend that Commander, Naval Supply Systems Command
    establish management and oversight written procedures for performance-
    based logistics contracts that require the Naval Inventory Control Point-
    Philadelphia:

          a. Verify and document results of all contractor-reported
    performance metrics and maintain evidence of the verification.

           b. Establish a time frame for performing flight hour and other
    required reconciliations consistent with the contract requirements, complete
    those reconciliations within the time frame, and document the results.




                                       14
      c. Establish a time frame for completing performance-based logistics
contract modifications related to reconciliations and require issuance of the
modifications in accordance with the time frame.

        d. Periodically update performance-based logistics business case
analyses to determine if the Navy realized the projected cost avoidances and
if the PBL approach remains valid.

Deputy Assistant Secretary (Logistics), Office of the Assistant Secretary
Research, Development and Acquisition, Department of the Navy Comments.
The Deputy Assistant Secretary concurred with Recommendation 1.a. and plans
to issue policy on verifying results of contractor-reported performance metrics
and on maintaining evidence of the verification. The Navy plans to publish the
policy by September 20, 2006.

The Deputy Assistant Secretary also concurred with Recommendation 1.b. and
agreed to issue guidance on completing required reconciliations consistent with
contract requirements within the time frame and to document the results. The
Navy plans to publish policy by September 20, 2006.

The Deputy Assistant Secretary partially concurred with Recommendation 1.c.
and acknowledged that the Navy should expeditiously negotiate and complete
contract modifications related to reconciliations. He stated, however, that
contract modification negotiations can be complex and that the Navy should not
set artificial or standardized time frames for completion of those modifications.
The Deputy Assistant Secretary plans to publish policy by September 20, 2006.

The Deputy Assistant Secretary concurred with Recommendation 1.d. The Deputy
Assistant Secretary stated that Business Case Analysis for fixed-price
performance-based logistics arrangements will be updated when changes in the
underlying assumptions result in modifications to the original contract cost while
cost-plus performance-based logistics arrangements will be updated annually. The
Naval Supply Systems Command plans to publish policy by September 20, 2006.

Audit Response. The Deputy Assistant Secretary comments are considered
responsive and meet the intent of the recommendations.

2. We recommend that Commander, Naval Inventory Control Point-
Philadelphia establish management controls that ensure compliance with the
procedures for contract-required reconciliation.

Deputy Assistant Secretary (Logistics), Office of the Assistant Secretary
Research, Development and Acquisition, Department of the Navy Comments.
The Deputy Assistant Secretary concurred with the recommendation. The NAVICP
will establish an assessable unit to comply with procedures for contract-required
reconciliation and ensure adequate and consistent documentation of performance-
based logistics contracts. The target completion date is December 1, 2006.

Audit Response. The Deputy Assistant Secretary comments are considered
responsive and meet the intent of the recommendation.



                                    15
Appendix A. Scope and Methodology
    We evaluated the Navy’s progress in developing and implementing PBL contracts
    for the H-60 SeaHawk Program. We assessed adequacy and completeness of the
    Tip-to-Tail, FLIR, Dynamic Components, and Avionics H-60 SeaHawk PBL
    BCAs, as well as the Navy’s process for development and implementation of the
    H-60 SeaHawk PBL contracts.

    We interviewed personnel responsible for PBL development and implementation
    at the Assistant Deputy Under Secretary of Defense (Logistics Plans and
    Programs); the Office of the Assistant Secretary of the Navy (Research,
    Development, and Acquisition); NAVAIR; NAVSUP; NAVICP; Naval Air Depot
    North Island, California and Naval Air Depot Jacksonville, Florida. In addition,
    we interviewed representatives from H-60 PBL contractors: MHSCo, RSAS,
    LMSIC, and SAC. We also interviewed customer representatives from the Navy
    Atlantic and Pacific Fleet H-60 SeaHawk wings.

    We reviewed laws, DoD Directives and Instructions, as well as OSD and Naval
    PBL guidance memorandums (see Appendix B for a detailed list). In addition, we
    reviewed the Tip-to-Tail, FLIR, Dynamic Components, and Avionics
    H-60 SeaHawk PBL contracts and BCAs and associated NAVAIR Depot
    Commercial Service Agreements.

    We performed this audit from February 2005 through March 2006 in accordance
    with generally accepted government auditing standards.

    Use of Computer-Processed Data. We relied on limited computer-processed
    data to perform this audit. Use of computer-processed data included data Navy
    and the H-60 SeaHawk PBL contractors provided. We did not assess reliability
    of the information because the data from systems were not a basis for our
    conclusions or finding.

    Government Accountability Office High-Risk Area. The Government
    Accountability Office (GAO) has identified several high-risk areas in DoD. This
    report provides coverage of DoD Supply Chain Management high-risk area.


Prior Coverage
    During the last 4 years, the GAO and the Department of Defense office of
    Inspector General (DoD IG) issued five reports discussing PBL. Unrestricted
    GAO reports can be accessed over the Internet at. Unrestricted DoD IG reports
    can be accessed at http://www.dodig.mil/audit/reports.




                                       16
GAO
    GAO Report No. GAO-05-966 “Defense Management - DOD Needs to
    Demonstrate That Performance-Based Logistics Contracts Are Achieving
    Expected Benefits,” September 9, 2005

    GAO Report No. GAO-04-715, “Defense Management - Opportunities to
    Enhance the Implementation of Performance-Based Logistics,” August 16, 2004

    GAO Report No. GAO-02-306, “Opportunities to Improve the Army’s and the
    Navy’s Decision-making Process for Weapons Systems Support,” February 28, 2002


DoD IG
    DoD IG Audit Report No. D-2005-037 “Logistics - Implementation of
    Performance-Based Logistics for the Javelin Weapon System,” March 7, 2005

    DoD IG Audit Report No. D-2004-110 “Logistics - The Military Departments’
    Implementation of Performance-Based Logistics in Support of Weapon Systems,”
    August 23, 2004




                                     17
Appendix B. Office of the Secretary of Defense
            and Department of Navy
            Performance-Based Logistics
            Guidance
    OSD Guidance. OSD issued from September 2001 through November 2004 the
    following PBL-related Directives and Memorandums.

    The Quadrennial Defense Review, September 2001, mandated implementation of
    PBL and modern business systems with appropriate metrics designed to compress
    the supply chain, remove non-value-added steps, and improve readiness for major
    weapons systems and commodities.

    USD(AT&L) Memorandum, “Performance Based Logistics,” February 13, 2002,
    requires that Service Acquisition Executives submit a PBL implementation
    schedule that includes the “decision criteria used to conduct the business case
    analysis for legacy systems.” The memorandum also identifies all DoD
    regulations and guidance for implementation of PBL in the Military Departments.

    USD(AT&L) Memorandum, “Total Life Cycle Systems Management (TLCSM)
    and Performance Based Logistics (PBL),” March 7, 2003, identifies
    implementation of the Future Logistics Enterprise as a top priority for achieving
    the objective of using PBL. The Future Logistics Enterprise emphasizes use of
    Total Life Cycle Systems Management and PBL to improve readiness. The
    memorandum provides a template as a synopsis of key activities and outputs to
    assist program managers in effectively implementing Total Life Cycle Systems
    Management and PBL.

    DoD Directive 5000.1, “The Defense Acquisition System,” May 12, 2003,
    provides policy and procedures for managing all acquisition programs and
    authorizes publication DoD Instruction 5000.2, “Operation of the Defense
    Acquisition System,” May 12, 2003. The directive defines performance-based
    acquisition as the DoD-preferred strategy for acquiring and sustaining products,
    and emphasizes its use whenever feasible to maximize competition, innovation,
    interoperability, and reduce costs. DoD Directive 5000.1 also identifies the
    Program Manager as the individual with responsibility and authority to
    accomplish program objectives for development, production, and sustainment to
    meet the user’s operational needs. The DoD instruction further assigns
    responsibility to the Program Manager for developing and implementing
    performance-based logistics.

    USD(AT&L) Memorandum, “Performance Based Service Acquisitions,”
    August 19, 2003, emphasizes the need for continuing use of performance-based
    service acquisitions. The memorandum establishes a goal to award 50 percent of
    service contracts with performance-based specifications by FY 2005. The
    memorandum also directs that Military Departments submit an annual report on
    the percentage of services contract dollars awarded using performance-based
    service acquisitions.


                                        18
USD(AT&L) Memorandum, “Performance-Based Logistics (PBL) Business Case
Analysis (BCA),” January 23, 2004, provides guiding principles to Military
Departments for developing PBL BCAs and directs that Military Departments
incorporate the guidelines in their PBL BCA guidance.

USD(AT&L) Memorandum, “Performance Based Logistics (PBL) and the
Business Case Analysis (BCA),” March 20, 2004, provides additional guidance
for assessing the potential application of PBL strategies. The memorandum states
that a September 2006 deadline for PBL BCAs was established by another policy
document, the Strategic Planning Guidance. The Strategic Planning Guidance
requires that the Services complete by September 2006 a BCA for potential PBL
strategies on all new and fielded Acquisition Category I and II programs. The
USD(AT&L) memorandum establishes criteria for the Military Departments to
use in the analysis of Acquisition Category I and II programs that have not
employed a PBL strategy so they will be in compliance with the Strategic
Planning Guidance deadline.

USD(AT&L) Memorandum, “Performance Based Logistics: Purchasing Using
Performance Based Criteria,” August 16, 2004, provides guidance to the Military
Department Secretaries on purchasing weapon system logistics support using
performance-based criteria. The guidance is the result of a Deputy Secretary of
Defense memorandum, “Implementation of the Defense Business Practice
Implementation Board (DBB) Recommendation to the Senior Executive Council
(SEC) on Continued Progress on Performance Based Logistics,” February 4,
2004, that directs such guidance be issued.

USD(AT&L) Memorandum, “Performance-Based Logistics Product Support
Guide,” November 10, 2004, introduces the “Performance-Based Logistics: A
Program Manager’s Product Support Guide.” The November 10, 2004,
memorandum states that the implementation of PBL throughout DoD was
resulting in “significant cost savings and improved capability.” The guide
provides revised guidance for implementing PBL and incorporates lessons learned
from successful application of PBL in other DoD Programs. The memorandum
further directs use of the guide by program managers and product support
managers when designing and assessing supportability in DoD weapon systems.

Navy Guidance. The Department of the Navy issued from April 2002 through
September 2005 the following PBL-related guidance.

Assistant Secretary of the Navy (Research, Development, and Acquisition),
“Department of the Navy Performance Based Logistics (PBL) Implementation
Plan,” April 26, 2002. The plan describes Navy initiatives to implement PBL and
defines the goal, objectives, strategy, and approach for implementing PBL. In
addition, the plan includes a complete schedule of Navy programs and PBL
initiative start dates.

NAVICP “Performance Based Logistics Guide for Industry,” June 2002,
identifies the five major phases in PBL development.




                                   19
Assistant Secretary of the Navy (Research, Development, and Acquisition),
Memorandum “Performance Based Logistics Guidance Document,”
January 27, 2003, articulates PBL strategy, identifies the characteristics of PBL
and defines PBL roles and responsibilities for program managers.

NAVICP “Maritime PBL Deskguide,” undated, addresses major areas of concern
related to PBL initiatives, including the different types of PBL agreements,
performance metrics and requirements, the language used for a PBL statement of
work and objectives, BCA process, and file maintenance procedures.

NAVICP “BCA Cost Model Desk Reference Guide,” September 15, 2004,
provides instructions for the PBL BCA Cost Model. The guide provides
instructions regarding what data to enter into the model and why to enter the data.
In addition, the guide identifies sources for some BCA data elements. The guide
also identifies the purpose of the BCA Cost model as a tool to identify cost
avoidances and savings for the Navy Working Capital Fund.

NAVICP “Virtual SYSCOM Business Rules for Performance-Based Logistics
(PBL) Initiatives,” January 2005, incorporates established guidance provided by
OSD, government statutes, and the Navy. The guide provides an overview of
policies and processes to follow in developing and executing PBL initiatives
when coordinating across agencies.

Assistant Secretary of the Navy (Research, Development, and Acquisition), “DoN
Guidebook for Developing Performance Based logistics Business Case Analysis,”
September 30, 2005, provides amplifying guidance and information for program
managers and cost analysts in the development of PBL BCAs.




                                    20
Appendix C. Performance-Based Logistics H-60
            SeaHawk Contracts
   NAVICP awarded four PBL contracts, valued at $658.8 million, for the
   H-60 SeaHawk. Each contract was for specific Navy-unique items and select
   H-60 models that use the items. The four PBL contracts are the Tip-to-Tail,
   FLIR, Dynamic Components, and Avionics.

   H-60 Tip-to-Tail Contract. The H-60 Tip-to-Tail Phase I contract awarded to
   MHSCo December 30, 2003, is a $417 million, 5-year, firm-fixed-price PBL
   contract for support of 540 items. MHSCo was responsible for establishing and
   operating the H-60 SeaHawk PBL Program in support of Navy H-60B, F, H, and
   S models, Coast Guard HH-60J, and Navy Foreign Military Sales
   H-60 customers. Those Foreign Military Sales customers included Australia,
   Greece, Spain, Thailand, and Taiwan. The firm-fixed price contract also included
   $10 million in available performance incentives the contractor would receive if it
   achieved pre-defined performance measures.

   H-60 FLIR Contract. The FLIR contract, awarded to RSAS September 30,
   2003, is a $123.2 million, 10-year, firm-fixed-price PBL contract for logistics
   management of three items. The contract requires that RSAS maintain, repair,
   and manage 86 FLIR units the Navy uses on its H-60 helicopters. The FLIR
   contract did not include performance incentives; instead, it penalized the
   contractor for not meeting minimum availability requirements.

   H-60 Dynamic Components Contract. The Dynamic Components contract,
   awarded to SAC February 27, 2003, is a $113 million, 31-month, firm-fixed-price
   PBL contract requiring that SAC provide supply management of 14 items in
   support of Navy’s H-60B, F, H, R, and S models, Coast Guard HH-60J, and Navy
   foreign military sales H-60 helicopters. The contract ended September 30, 2005.
   Supply management of 11 of the 14 items transferred to the Tip-to-Tail Phase I
   contract in the first quarter of FY 2006. The remaining three items transferred to
   the Tip-to-Tail Phase II contract during the second quarter of FY 2006. The firm-
   fixed price contract also included $5 million in available performance incentives
   that the contractor would receive if it achieved pre-defined performance
   measures.

   Avionics PBL Contract. The Avionics contract, awarded to LMSIC May 10,
   2002, is a $5.6 million, 41-month, firm-fixed-price PBL contract requiring that
   LMSIC provide supply management of 42 avionics items for the SH-60B model
   helicopters. By mutual agreement, NAVICP terminated the contract on
   December 30, 2003, and supply management of the 42 avionics items transferred
   to the Tip-to-Tail Phase I contract. The firm-fixed price contract also included
   $280,000 in available performance incentives that the contractor would receive if
   it achieved pre-defined performance measures.




                                       21
Appendix D. Other Management Initiatives
   Management aggressively adopted and implemented the PBL concept, which
   resulted in other benefits for the H-60 SeaHawk to include PBL and contractor-
   provided training, additional Navy depot workload in compliance with applicable
   laws, and contractor-provided process improvements.

   Navy Adoption of PBL Strategies. Management aggressively adopted and
   implemented the PBL concept. The Navy’s assertiveness originated with high-
   level officials in considering PBL as the department’s preferred strategy for
   product support. Evidence of the Navy’s aggressiveness included the Office of
   the Assistant Secretary of the Navy (Research, Development, and Acquisition)
   issuing a comprehensive policy on PBL implementation. The policy,
   “Department of the Navy Performance-Based Logistic Guidance Document,”
   January 27, 2003, defines PBL roles and responsibility of program mangers.
   Availability of PBL Training. Another aspect that helped contribute to the
   success of the Navy’s PBL development was an increase in the availability of
   training. The increase as well as the quality of training led to a higher degree of
   trained employees. The Defense Acquisition University (DAU), which is the
   corporate university of the DoD acquisition, technology, and logistics work force,
   offers training courses for a Life-Cycle Logistics Career Track and a PBL
   Continuous Learning Module. Since DAU launched the module in FY 2002,
   almost 1,700 students have graduated. As of January 2006, DAU reported that
   283 Navy personnel completed the training module.
   DAU also developed other training courses relating to PBL. That curriculum
   includes courses entitled PBL Part A, Logistics 235A and PBL Part B,
   Logistics 235B. The classes provide a working level understanding of performance-
   based support strategies. PBL Part A requires 50 hours of online study and PBL
   Part B is a 5-day course of classroom study. As of January 2006, DAU reported
   more than 2,200 Navy personnel completed the PBL Logistics 235 courses, with
   860 assigned to NAVAIR. To assist program and logistics managers in developing
   and executing PBL strategies, DAU developed a PBL Toolkit. The university
   supports PBL by providing lecturers and workshops throughout the United States.
   Contractor-Provided Training. The contractors’ field service representatives
   trained Navy personnel at no increased cost to the PBL contract. On the FLIR
   contract, RSAS made five field survey and site visits to the fleet. Between
   October 2003 and September 2005, RSAS trained 38 fleet personnel on system
   theory, aircraft system operation, failure trends, and improvement initiatives. In
   addition, RSAS planned to produce a periodic newsletter for inclusion on the
   H-60 SeaHawk Web site. The newsletter would contain system theories,
   troubleshooting advice, and technical explanations. On the Tip-to-Tail contract,
   LMSIC and SAC provided field service representatives for items the contract
   supported. For example, LMSIC identified a training shortfall at NAVAIR North
   Island Depot, California, and to address the shortfall, they funded and provided
   the needed training to Navy depot personnel. That training was on the operation
   of legacy test equipment and occurred from October 18 through October 21,
   2005. In addition, MHSCo conducted training events at both of the North Island,
   California, and Jacksonville, Florida, NAVAIR Depots.


                                       22
           Navy Depot Workload. Before implementing the SeaHawk PBL, the Navy
           relied on contractor depot-level repair capability for the FLIR system. The PBL
           support strategy identified a weakness in maintaining a Government core logistics
           capability as title 10 of the United States Code11 requires. The strategy
           established a partnership between the NAVAIR Depot Jacksonville and RSAS.
           The public-private partnership contributed greatly to the success of the FLIR PBL
           support concept by effectively using the NAVAIR professional labor workforce
           and the RSAS industrial management expertise. NAVAIR benefited by adding
           additional maintenance capability and workload within the Navy’s depot system.

           Product Improvements. PBL should motivate contractors to improve
           component and system reliability because the strategy provides the foundation for
           reducing costs and increasing profits as well as product improvements. The
           H-60 SeaHawk PBL contracts required that the contractors manage and resolve
           problems with obsolescence,12 including loss or impending loss of suppliers.
           Contractors should additionally serve their best interests by increasing reliability
           of items managed, which ultimately reduces the number and frequency of repairs
           or replacement parts. Contractors may propose a change to managed items that
           does not affect form, fit, or function of the item and make improvements with
           their own funds. Changes typically increase reliability or prevent obsolescence.
           Repair costs to the contractor are, therefore, reduced, and DoD receives the
           benefit of more reliable parts at no increased cost to the PBL contract. Examples
           of product improvements were evidenced in the H-60 Dynamic Components and
           FLIR PBL programs. In those programs, contractors took steps toward product
           improvements for their respective PBL items. SAC identified more than
           70 product improvements on the Dynamic Components contract. RSAS also
           identified product improvements through their Reliability Growth Program.

           Applying management analysis methods, RSAS identified failure trends and
           constructed two modification kits, Reliability Growth Kit 1 and 2, for installation in
           FLIR assemblies. Reliability Growth Kit 1 focused on the primary modes of
           equipment failure. The Navy will fully incorporate the kit into the fleet by early
           FY 2007. Reliability Growth Kit 2 improved the equipment fans, seals, gaskets, and
           electronic circuitry. Installations are scheduled for completion by the second quarter
           of FY 2008. Additional RSAS improvement initiatives included a control panel
           modification, a maintenance power-checker test box that will reduce maintenance-
           induced failures, and repair process improvements to reduce water, loose hardware,
           foreign material, and wire damage. SAC and RSAS initiated, developed, and
           implemented the improvements at no increased cost to the PBL contract.




11
  Section 2464, title 10, United States Code core logistics capability requires that DoD shall “maintain a
 core logistics capability that is Government-owned and Government-operated (including Government
 personnel and Government-owned and Government-operated equipment and facilities) to ensure a ready
 and controlled source of technical competence and resources necessary to ensure effective and timely
 response to a mobilization, national defense contingency situations, and other emergency requirements.”
12
      Obsolescence impacts all systems when technology advancements result in components, subassemblies,
     and assemblies are threatened with nonavailability for critical production or sustainment.



                                                     23
Appendix E. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Program Analysis and Evaluation

Department of the Navy
Assistant Secretary of the Navy (Manpower and Reserve Affairs)
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Contract Management Agency
Director, Defense Logistics Agency

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                          24
Department of the Navy Comments




                    25
26
27
28
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Readiness and Operations Support prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Wanda A. Scott
Robert F. Prinzbach, II
Thomas S. Bartoszek
Nancee K. Needham
Walter S. Bohinski
Michael J. Galloway
Michael R. Nova
Beverly J. Charlton
Jeana N. Roberts
Mayra Y. Alvarado Rivera
Sharon L. Carvalho
